HHS/OIG, Audit -"Inspector General's Reconciliation Testing of the March 2003 Monthly Contractor Financial Reports Submitted by United Government Services,"(A-01-03-00521)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Inspector General's Reconciliation Testing of the March 2003 Monthly Contractor Financial Reports Submitted by United
Government Services," (A-01-03-00521)
December 29, 2003
Complete Text of Report is available in PDF format (304 KB). Copies can also be obtained by contacting
the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this review at United Government Services' (UGS) was to determine if the Medicare Part A funds drawn
and funds expended reported to the Centers for Medicare & Medicaid Services (CMS) on the March 2003 CMS-1521 and CMS-1522
forms reconciled to UGS' financial records and paid claims tapes. UGS reported $2.29 billion in funds drawn, and $2.34
billion in funds expended, on its March 2003 CMS- 1521 and CMS-1522 forms in accordance with CMS instructions for preparing
the CMS forms and the guidelines set forth by the CMS. Accordingly, we were able to reconcile funds drawn and funds expended
to UGS's financial records and paid claims tapes. However, we found that UGS misclassified certain reported amounts and
did not always deposit cash receipts timely due to isolated internal control weaknesses. These weaknesses did not impact
funds drawn and funds expended. UGS concurred with our finding and recommendations and has initiated corrective action.